              OFFICE OF
       THE INSPECTOR GENERAL

  SOCIAL SECURITY ADMINISTRATION

   FOLLOW-UP: INDIVIDUALS RECEIVING
BENEFITS INAPPROPRIATELY UNDER MULTIPLE
        SOCIAL SECURITY NUMBERS
           AT THE SAME ADDRESS

       October 2011   A-01-10-11008




   AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
MEMORANDUM

Date:      October 14, 2011                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: Individuals Receiving Benefits Inappropriately Under Multiple Social Security
           Numbers at the Same Address (A-01-10-11008)


           OBJECTIVE
           The objective of our review was to identify and prevent individuals from inappropriately
           receiving Old-Age, Survivors and Disability Insurance (OASDI) benefits and
           Supplemental Security Income (SSI) payments under multiple Social Security numbers
           (SSN) at the same address.

           BACKGROUND
           In general, the Social Security Administration (SSA) assigns an individual only one
           SSN. 1 However, in some cases, because of fraud or staff mistakes, the Agency has
           assigned individuals more than one SSN. As a result, the Agency has controls in place
           to identify beneficiaries who may be receiving duplicate payments under different SSNs.
           Specifically, the Agency has the Master File Duplicate Detection Operation (MAFDUP)
           to identify beneficiaries who may be inappropriately receiving benefits on multiple
           OASDI records. 2 The Agency also has the Supplemental Security Income Duplicate
           Payment Project (SSIDPP) to identify recipients who may be inappropriately receiving
           benefits on multiple SSI records.3 (For more information on SSA’s controls for detecting
           duplicate payments, see Appendix B.)




           1
             Under certain circumstances, SSA may assign an individual more than one SSN, such as when the
           individual objects to certain numbers in his or her original SSN for religious or cultural reasons. SSA,
           POMS, RM 00205.040 (June 7, 2006).
           2
               SSA, POMS, SM 04730.001 (July 8, 2003).
           3
               SSA, POMS, SI 02310.100 (May 27, 1999).
Page 2 - The Commissioner


In our prior review, we identified almost $9.2 million in overpayments to
220 beneficiaries who inappropriately received benefits under multiple SSNs at the
same address.4

To perform our current review, we analyzed a file of OASDI and SSI beneficiaries who
received benefits in January 2010. Based on our analysis of SSNs, address
information, and other benefit information, we identified 160 beneficiaries who appeared
to be inappropriately receiving benefits at the same address under at least two different
SSNs. We referred these cases to SSA for review and appropriate action. (See
Appendix C for additional information on our scope and methodology.)

RESULTS OF REVIEW
Based on our review, SSA assessed $2.5 million in overpayments to 77 beneficiaries
who inappropriately received benefits under multiple SSNs at the same address.5 Of
these 77 cases, 52 involved possible fraud and 25 had administrative errors. Also, the
Agency avoided paying an estimated $528,655 by discontinuing these incorrect
payments. 6 Our Office of Investigations is reviewing the aforementioned cases of
possible fraud as well as 47 other cases. Therefore, we expect the Agency to assess
additional overpayments.

Specifically, of the160 cases,
•     52 involved possible fraud,                            Chart 1: Sample Results
                                                        52 (33%)
      and SSA assessed                                  Cases of
      $2.2 million in                                   Possible                      36 (22%)
      overpayments;                                      Fraud                        Cases not
                                                                                      Overpaid
•     47 were still under review                       25 (16%)
      as of September 2011 (in                        Cases with
      all these cases, SSA                              Errors                      47 (29 %)
      suspected fraud and                                                           Cases Still
      referred them to our Office                                                    Under
      of Investigations);                                                            Review

•     25 had administrative
      errors, resulting in $300,164 in overpayments; and
•     36 were not overpaid. 7

4
 SSA, Office of the Inspector General (OIG), Individuals Receiving Benefits Under Multiple Social
Security Numbers at the Same Address (A-01-05-25002), April 2005.
5
    As of September 2011, SSA had recovered $110,779 of these overpayments (about 4 percent).
6
 This is the amount SSA would have paid to the beneficiaries if the Agency had not stopped benefits
based on action taken during our review. We calculated the savings by taking the last monthly
overpayment received by the beneficiaries multiplied by 12 months.
7
    Most of these cases represented different individuals, such as twins.
Page 3 - The Commissioner


Table 1 summarizes the cases and overpayments by benefit type.

        Table 1: Summary of Cases and Overpayments by Benefit Type
                                                                                   Total Cases and
                         OASDI Only              SSI Only        OASDI and SSI
                                                                                    Overpayments
     Possible Fraud    16    $1,061,786      4      $32,910      32   $1,097,472    52    $2,192,168
     Administrative
                       10      $176,578      6      $67,383      9      $56,203     25      $300,164
     Errors
     Subtotal          26    $1,238,364     10     $100,293      41   $1,153,675    77    $2,492,332
     Not Overpaid      12             $0     7              $0   17          $0     36             $0
     Pending Review    24               -    6               -   17            -    47               -
     Total Cases and
                       62    $1,238,364     23     $100,293      75   $1,153,675   160    $2,492,332
     Overpayments


Beneficiaries Overpaid Because of Possible Fraud

SSA staff—working with our Office of Investigations—determined that 52 beneficiaries
were overpaid $2.2 million because of possible fraud. The average overpayment
amount was $42,157, and the average number of months overpaid was
80 (about 7 years).

•     SSA assigned a second SSN in 48 cases. In one case, SSA assigned the second
      SSN in 2008. 8 For the remaining 47 cases, SSA assigned the second SSN before
      2001. Since 2001, the Agency implemented several initiatives to protect the integrity
      of the SSN. For example, the Agency began requiring (1) mandatory interviews for
      all applicants for original SSNs who are over age 12 and (2) evidence of identity for
      all children, regardless of age. 9 Also, the Agency established several Enumeration
      Centers that focus exclusively on assigning SSNs and issuing SSN cards.
      Additionally, the Intelligence Reform and Terrorism Prevention Act of 2004 requires
      that SSA (1) verify birth records for any individual before assigning an original SSN
      and (2) tighten the minimum standards for documents that may be presented when
      applying for an original card. 10



8
 When the beneficiary was born in 2008, her parent completed an SSN application for her through SSA’s
Enumeration at Birth program—a program that provides SSNs through the birth registration process.
Later, the beneficiary’s parent went to an SSA field office and completed another SSN application for the
beneficiary. For these applications, the parent used different last names for the child, which may have
caused SSA to assign the beneficiary two different SSNs 1 week apart in 2008. For more information,
see SSA OIG report, Follow-up of the Enumeration at Birth Program (A-08-06-26003), April 2006.
9
    SSA, POMS, RM 10210.001 (January 7, 2010).
10
  The Intelligence Reform and Terrorism Prevention Act of 2004, Pub. L. No. 108-458 § 7213,
118 Stat. 3638, 3830 – 3832 (2004).
Page 4 - The Commissioner


•     SSA established the second record in four cases by mistyping the SSN. 11 For
      instance, in one of the four cases, an SSI recipient’s father moved out of the
      household. Since SSA could not update the existing record with this information, the
      Agency established a new record. When doing so, an Agency employee mistyped
      the SSN. As a result, the recipient was overpaid $3,047 from August 2009 through
      May 2011.

Examples of the possible fraud cases follow.

•     A New York resident began receiving SSI payments in October 1997 under one SSN
      while working and earning over $30,000 a year, on average, under a second SSN.
      In January 2007, she stopped working and began receiving disability benefits under
      the second SSN. Since her earnings and disability benefits made her ineligible for
      SSI, she was overpaid $103,774 from October 1997 through May 2011. Our Office
      of Investigations is investigating this case.

•     A Tennessee resident obtained two SSNs using different names in 1962 and 2000.
      In February 2008, he began receiving widower’s benefits under the second SSN. In
      March 2009, he began receiving retirement benefits under the first SSN. When he
      filed for his retirement benefits, he stated he was not receiving any other benefits—
      even though he was receiving widower’s benefits at the time. He was overpaid
      $18,468 from March 2009 through April 2011. Our Office of Investigations finished
      investigating this case.

Beneficiaries Overpaid Because of Administrative Errors

SSA staff determined that 25 beneficiaries were overpaid $300,164 because of
administrative errors and did not refer them to our Office of Investigations for possible
fraud. The average overpayment amount was $12,007, and the average number of
months overpaid was 35 (about 3 years). Administrative errors included SSA staff
keying errors and not cross-referencing records.

For example, in July 2009, a Florida resident began receiving children’s benefits under
one SSN and SSI payments under another SSN. Because SSA had not cross-referred
the records, the recipient was overpaid $2,148 from October 2010 through
February 2011.

SSA Did Not Detect All Duplicate Benefits Paid Under Different SSNs

SSA’s systems identify duplicate OASDI benefits and SSI payments by matching
records on several items, including the beneficiaries’ names. Therefore, if the last
names are different, SSA is less likely to identify the duplicate payments through




11
     In these four cases, the Agency suspected fraud and referred them to our Office of Investigations.
Page 5 - The Commissioner


SSIDPP and MAFDUP. Additionally, SSA did not have a system for identifying
beneficiaries inappropriately receiving both OASDI benefits and SSI payments under
different SSNs.12

Of the 77 individuals with overpayments, SSA’s systems would not identify 63. Of these
63 beneficiaries:

      •   22 received either OASDI benefits or SSI payments. SSA’s systems would not
          identify these cases because they did not meet the systems’ matching criteria. In
          most cases, the records did not match on the beneficiaries’ last names.

      •   41 received both OASDI benefits and SSI payments.

CONCLUSION AND RECOMMENDATION
We identified 77 beneficiaries who were overpaid $2.5 million in benefits under multiple
SSNs at the same address. Our Office of Investigations is reviewing 47 additional
cases. Therefore, we expect SSA to assess additional overpayments. This represents
a small fraction of the $740 billion SSA paid to over 57 million beneficiaries in Fiscal
Year 2010. 13

To ensure all cases identified in this review are addressed, we recommend SSA staff
work with our Office of Investigations and assess overpayments where appropriate.

AGENCY COMMENTS

SSA agreed with our recommendation. See Appendix E.




                                                 Patrick P. O’Carroll, Jr.




12
   In our prior review, we recommended SSA develop a match to identify and prevent beneficiaries
inappropriately receiving both OASDI and SSI benefits under different SSNs. Although SSA agreed with
this recommendation, the Agency did not implement it. See Appendix D for more information on the
recommendations we made in our prior review.
13
     SSA, Performance and Accountability Report, Fiscal Year 2010, page 7.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – The Social Security Administration’s Controls for Detecting Duplicate
             Payments

APPENDIX C – Scope and Methodology

APPENDIX D – Recommendations in Prior Review

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
MAFDUP        Master File Duplicate Detection Operation
MBR           Master Beneficiary Record
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
SSIDPP        Supplemental Security Income Duplicate Payment Project
SSN           Social Security Number
SSR           Supplemental Security Record
U.S.C.        United States Code
                                                                       Appendix B

The Social Security Administration’s Controls
for Detecting Duplicate Payments
When an individual applies for Old-Age, Survivors and Disability Insurance (OASDI)
benefits or Supplemental Security Income (SSI) payments, Social Security
Administration (SSA) staff asks the person about any prior applications for benefits.
This is to ensure that individuals who may be entitled on more than one record receive
the correct amount. In addition, SSA runs computer matches to identify records that
appear to be duplicates based on name, date of birth, and/or ZIP code. SSA personnel
review the records to determine whether they relate to the same beneficiary, correct the
benefit amounts (if necessary), and assess any overpayments.

OASDI

Under Title II of the Social Security Act, the OASDI program provides monthly benefits
to retired or disabled workers and their families and to survivors of deceased workers. 1
An individual may be eligible for benefits on several records. For example, a person
can be entitled to benefits on his own earnings record and on his spouse’s record.
Although entitled on both records, SSA procedures generally provide that only the
higher benefit amount is payable.

To ensure individuals who are entitled to multiple OASDI benefits receive the correct
payment amount, SSA developed systems to adjust, validate, and post accurate
entitlement information on the Master Beneficiary Record (MBR) involved. 2 SSA has
another control in place to detect duplicate OASDI benefits, the Master File Duplicate
Detection Operation (MAFDUP). The Agency runs MAFDUP to detect records that
match on several items, including first name, middle initial, last name, ZIP code, and
date of birth. MAFDUP generates alerts at the appropriate SSA office for beneficiaries
who may be receiving benefits under multiple SSNs.




1
    Social Security Act §§ 202(a) – (k), 42 U.S.C. §§ 402(a) – (k).
2
    SSA, POMS, SM 00823.001 (April 20, 2005).



                                                      B-1
SSI

Under Title XVI of the Social Security Act, the SSI program provides a minimum level of
income to financially needy individuals who are aged, blind, or disabled. 3 Generally,
individuals may receive payment of both OASDI and SSI benefits under the same
Social Security number 4 as long as the combination of such benefits does not exceed
the maximum SSI payment allowed. 5

The Supplemental Security Record (SSR) exchanges information with other SSA
systems to detect duplicate records and payments. When the system detects
differences between the identity data from the SSR and other databases, it generates
an automatic alert. SSA field office staff review the records, resolve any discrepancies,
and make any necessary adjustments to the SSI payments. 6

Additionally, SSA designed the SSI Duplicate Payment Project to reduce the possibility
of a recipient receiving duplicate payments because of multiple SSI records. 7 The
Agency designed the project to identify cases that have matching names and the same
date of birth. The project identifies cases that meet these criteria and transmits alerts to
the appropriate SSA office to resolve the discrepancies.




3
    Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq.
4
    Social Security Act § 1612(a)(2)(B), 42 U.S.C. § 1382a(a)(2)(B).
5
    Social Security Act § 1611(a)(1)(A), 42 U.S.C. § 1382(a)(1)(A).
6
    SSA, POMS, SM 02001.001-.425.
7
    SSA, POMS, SI 02310.100 (May 27, 1999).


                                                      B-2
                                                                                    Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies, and procedures.
•   Reviewed Office of the Inspector General report, Individuals Receiving Benefits
    Under Multiple Social Security Numbers at the Same Address (A-01-05-25002),
    April 2005.
•   Obtained a file of Master Beneficiary Records (MBR) for all primary and auxiliary
    beneficiaries and Supplemental Security Records (SSR) for all Supplemental
    Security Income recipients who received benefits in January 2010. 1 We ran several
    matches on these files based on the following fields: 5-digit ZIP code; date of birth;
    first name; and first few characters of the street address. We compared these fields
    in the following files.
             o Records in the SSR.
             o Records in the MBR against the SSR.
             o Records in the MBR primary beneficiary file.
             o Records in the MBR primary beneficiary file against the MBR auxiliary
               beneficiary file.
             o Records in the MBR auxiliary beneficiary file.

We removed any cases where the benefits on one record were cross-referenced or
accounted for on the other record—as these individuals were entitled on multiple
records or were concurrent beneficiaries—and SSA has processes in place to ensure
benefits are adjusted appropriately. In addition, we removed cases identified in our
previous audits. We continued our review with any remaining instances where two or
more cases matched on the fields listed above.




1
  A “primary beneficiary” is a numberholder entitled to benefits based on his/her own work record. An
“auxiliary beneficiary” is someone entitled to benefits based on someone else’s work record, by virtue of
relationship to the numberholder. SSA, POMS GN 03301.002 B (August 1, 2008).



                                                   C-1
We then obtained the Numident record for each beneficiary and compared the place of
birth, parents’ names, beneficiaries’ full names, and any other information on the record
to help determine whether the Social Security Numbers (SSN) belonged to the same
person or different individuals, such as twins with similar names. 2 In addition, we
reviewed the MBRs and SSRs to compare telephone numbers, bank account
information, and any other information available to help in making the determination.

Through this additional analysis, we identified 160 cases where we believed individuals
might be inappropriately receiving benefits under multiple SSNs at the same address.
We referred these cases to SSA for review and requested that the Agency refer any
instances of possible fraud to our Office of Investigations.

After obtaining feedback from SSA on our cases, we quantified the amount of
overpayments assessed by the Agency. We also calculated future savings for the next
12 months where SSA stopped the improper payments.

We conducted our audit between July 2010 and September 2011 in Boston,
Massachusetts. The entities audited were the field offices and program service centers
under the Office of the Deputy Commissioner for Operations, and the Offices of
Retirement and Survivors Insurance Systems, Disability Systems, and Applications and
Supplemental Security Income Systems under the Deputy Commissioner for Systems.
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We tested the data obtained for
our audit and determined them to be sufficiently reliable to meet our objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




2
 The Numident Master File houses, in SSN order, the identifying information for each number holder.
SSA, POMS, RM 10240.010 (April 26, 2010).


                                                 C-2
                                                                                  Appendix D

Recommendations in Prior Review
In our April 2005 review, Individuals Receiving Benefits Under Multiple Social Security
Numbers at the Same Address (A-01-05-25002), the Social Security Administration
(SSA) assisted us in identifying almost $9.2 million in overpayments to 220 beneficiaries
who inappropriately received benefits under multiple Social Security numbers (SSN) at
the same address. Of these 220 cases, 182 involved possible fraud and 38 had
administrative errors. When we issued the prior report, SSA and our Office of
Investigations were working on 85 other cases. As a result, we recommended SSA:

1. Develop a match to identify and prevent beneficiaries inappropriately receiving both
   Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental Security
   Income (SSI) benefits under different SSNs. SSA agreed and stated it was working
   internally with its systems staff to conduct an annual match, beginning in February
   2006, to identify and prevent beneficiaries receiving both OASDI and SSI benefits
   under different SSNs at the same address. SSA also stated that it expected the
   match operation to be handled through the process known as “CATF,” where special
   programming requests are accomplished to assist with fraud investigative
   operations.

    Current Status: SSA has not developed a match to identify beneficiaries receiving
                    both OASDI and SSI benefits under different SSNs.

2. Ensure that all beneficiaries inappropriately receiving multiple OASDI benefits at the
   same address are identified and that appropriate action is taken. SSA agreed and
   stated that it had completed its review of the cases provided by the Office of the
   Inspector General (OIG) in January 2005 and took appropriate action on all
   beneficiaries identified as possibly receiving incorrect multiple benefits. Additionally,
   the Agency stated that, as a result of our review, it referred cases that involved
   possible fraud to OIG for investigation.

    Current Status: SSA and our Office of Investigations finished working these cases.

3. Run the Supplemental Security Income Duplicate Payment Project (SSIDPP) more
   frequently than once per year. 1

    Current Status: SSA began running the SSIDPP quarterly in January 2005.




1
 SSIDPP identifies recipients who may be inappropriately receiving benefits on multiple SSI records.
SSA, POMS, SI 02310.100 (May 27, 1999).
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      August 31, 2011                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Follow-up: Individuals Receiving Benefits
           Inappropriately Under Multiple Social Security Numbers at the Same Address”
           (A-01-10-11008)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord, at (410) 966-5787.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL, DRAFT REPORT,
"FOLLOW-UP: INDIVIDUALS RECEIVING BENEFITS INAPPROPRIATELY
UNDER MULTIPLE SOCIAL SECURITY NUMBERS AT THE SAME ADDRESS"
(A-01-10-11008)

Recommendation

To ensure all cases identified in this review are addressed, we recommend SSA staff work with
our Office of Investigations and assess overpayments where appropriate.

Response

We agree. We worked with your Office of Investigations and have completed reviewing all the
cases identified in your report, assessing overpayments where appropriate. We consider this
recommendation closed for tracking purposes.




                                              E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Joe Cross, IT Specialist

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst

   Katie Toli, Auditor

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-01-10-11008.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
